                                   SOCIAL SECURITY
MEMORANDUM

Date:   October 30, 2003                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)



        Attached is a copy of our final report. Our objectives were to determine whether
        (1) wage reporting had improved among the original 100 employers in our September
        1999 report, Patterns of Reporting Errors and Irregularities by 100 Employers with the
        Most Suspended Wage Items, and (2) the Social Security Administration had taken
        steps to implement our recommendations from the 1999 report.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        FOLLOW-UP REVIEW
   OF EMPLOYERS WITH THE MOST
      SUSPENDED WAGE ITEMS

    October 2003   A-03-03-13026




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     Executive Summary
OBJECTIVE
The objectives of the audit were to determine whether (1) wage reporting had improved
among the original 100 employers in our September 1999 report, Patterns of Reporting
Errors and Irregularities by 100 Employers with the Most Suspended Wage Items
 (A-03-98-31009), and (2) the Social Security Administration (SSA) had taken steps to
implement our recommendations from the 1999 report.

BACKGROUND
Our September 1999 report identified those employers with the most suspended wage
items from Tax Years (TYs) 1993 through 1996. In the report, we concluded that a
relatively small number of employers account for a disproportionate share of the
suspended items and dollars in the Earnings Suspense File (ESF), which is the
repository for wage items reported under a name and Social Security number (SSN)
that does not match SSA records. In this report, we recommended that SSA
(1) develop a corrective action plan for problem employers, (2) establish preventive
controls related to wage reporting, (3) identify problem employers, and (4) use software
to identify employers using the same address. SSA agreed with Recommendations
1 and 3 and disagreed with Recommendations 2 and 4.

RESULTS OF REVIEW

Our review of the ESF activity for the original 100 employers during TYs 1997 to 2000
showed that, of the original 100 employers in our prior review:

•   40 were still on the Top 100 employers list for the follow-up period, and
•   60 were no longer on the Top 100 employers list for the follow-up period.

Of the 60 employers that were no longer on the Top 100 employers list in TYs 1997 to
2000:

•   14 employers showed increased reporting accuracy from the original period to the
    follow-up period;
•   19 employers showed decreased reporting accuracy from the original period to the
    follow-up period; and
•   27 employers did not have sufficient wage items in TY 2000 to determine the
    reporting accuracy.

We found that some of the employers no longer on the Top 100 list were reporting their
wages under different Employer Identification Numbers. In addition, it is possible that
some of these employers were no longer in business.


Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)           i
SSA has taken steps to address two of the recommendations through its efforts to
assist employers and hold them accountable for their wage reporting, including
(1) improving programs to assist employers with wage reporting problems, (2) focusing
Employer Service Liaison Officer’s (ESLO) resources on the largest contributors to the
ESF, and (3) coordinating activities with the Internal Revenue Service so employers
who continually report significant name/SSN mismatches can be penalized. However,
SSA still needs to do more in establishing preventive controls to detect wage reporting
errors and irregularities. The Agency has established an Earnings Data Warehouse
that will eventually be able to track employer reporting errors. Furthermore, the Agency
has not identified employers that report the same address for many employees. We
believe that this “address” control, or similar controls, could assist the Agency in
detecting potential SSN misuse.

CONCLUSIONS AND RECOMMENDATIONS

To ensure SSA can identify employer reporting trends and focus its efforts on the
employers with the most significant problems, we continue to recommend that SSA
establish preventive controls to detect wage reporting errors and irregularities, including
a link between the new Earnings Data Warehouse and ESLO efforts.

AGENCY COMMENTS

SSA agreed with our recommendation, stating the Earnings Data Warehouse will
provide employer reporting trends in early 2004, and the ESLOs will have access to this
data.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)          ii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

 Status of 100 Employers on 1993 to 1996 List......................................................3

    Original Employers Still Among the Top 100 Employers ....................................5

    Original Employers No Longer Among the Top 100 Employers .........................5

 Agency Progress on Earlier Recommendations ....................................................6

    Improving Programs to Assist Employers...........................................................6

    Coordination with the Internal Revenue Service ................................................9

    Preventive Controls and Address Standardization Software ............................10

CONCLUSIONS AND RECOMMENDATIONS.....................................................13

APPENDICES

Appendix A – Earlier Audit Findings Related to the Top 100 Employers

Appendix B – Status of Office of the Inspector General Recommendations Made in
             September 1999 Top 100 Report

Appendix C – Scope and Methodology

Appendix D – Initial Top 100 Listing Highlighting Status in Follow-Up Period

Appendix E – Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                                                                     Acronyms
    EIN                Employer Identification Number

    ESF                Earnings Suspense File

    ESLO               Employer Service Liaison Officer

    EVS                Employee Verification Service

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OPSOS              Office of Public Service and Operations Support

    SSA                Social Security Administration

    SSN                Social Security Number

    SSNVS              Social Security Number Verification Service

    TY                 Tax Year

    W-2               Wage and Tax Statement




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                                                           Introduction
OBJECTIVE

The objectives of the audit were to determine whether (1) wage reporting had improved
among the original 100 employers in our September 1999 report, Patterns of Reporting
Errors and Irregularities by 100 Employers with the Most Suspended Wage Items, and
(2) the Social Security Administration (SSA) had taken steps to implement our
recommendations from the 1999 report.

BACKGROUND

Title II of the Social Security Act requires that SSA maintain records of wages
employers pay to individuals. Employers report their employees’ earnings to SSA
annually on a Wage and Tax Statement (Form W-2). SSA uses manual and automated
edits to match employees’ Social Security numbers (SSN) and names to SSA’s master
file to post their earning to the Master Earnings File (MEF). The Earnings Suspense
File (ESF) contains wage items that fail to match SSA’s name and SSN records. As of
July 2002, SSA’s ESF contained about 236 million wage items and $374 billion in
wages that could not be posted to individual earnings records. In Tax Year (TY) 2000,
the ESF increased by 9.6 million items and $49 billion.

Wages in the ESF affect an individual’s Social Security benefits. SSA uses earnings
posted to the MEF to determine eligibility for retirement, survivors, disability, and health
insurance benefits and calculate benefit amounts. If earnings are not properly posted to
an individual’s earning record, the person will not receive credit for them.

In September 1999, we issued an audit report that identified the 100 employers with the
most suspended wage items from TYs 1993 to 1996. We concluded that a relatively
small number of employers account for a disproportionate share of the suspended items
and dollars in the ESF, and many of these suspended wage items exhibited patterns of
reporting errors and irregularities. We are doing a follow-up review for the following
reasons: (1) ongoing congressional interest in the ESF; (2) the ESF’s continued growth;
and (3) changes SSA made in the earnings reporting area since our 1999 report.

In our prior report, we recommended that SSA:

•   Develop and implement a corrective action plan for the 100 employers and continue
    its current efforts to contact those employers who are responsible for large numbers
    of suspended wage items.

•   Establish preventive controls to detect wage reporting errors and irregularities.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)           1
•   Identify those employers who continually submit annual wage reports with large
    numbers and/or percentages of unassigned, identical, and/or consecutively
    numbered SSNs.

•   Run address standardization software as soon as practical after employers submit
    their annual wage reports to identify employers that report the same address for
    many employees.

In its comments to our 1999 report, SSA stated that, overall, the findings paralleled its
experience with employer reporting problems. SSA indicated that implementing the
recommendations would not necessarily influence an employee to provide his/her
employer with the correct name/SSN or an employer to improve the accuracy of wage
reporting. In addition, SSA stressed that it has no compliance authority and is
dependent on the Internal Revenue Service (IRS) efforts in this area.

Specifically, SSA agreed with our recommendations to develop a corrective action plan
for the 100 employers and identify those employers who continually submit annual wage
reports with mismatched names and SSNs. However, SSA disagreed with the
remaining two recommendations, but stated it would explore the feasibility of
implementing preventive controls and address standardization software. See
Appendix B for the original recommendations and SSA’s most recent comments.

SCOPE AND METHODOLOGY
Our audit did not include an evaluation of SSA’s internal controls over the wage
reporting process. The purpose of our review was to determine how SSA used the
wage reporting data the Agency had accumulated. We did not focus our efforts on the
collection of wage reporting data, nor did we attempt to establish the reliability or
accuracy of such data. We provide additional information on our scope and
methodology in Appendix C. The entity audited was SSA’s Office of Public Services
and Operations Support (OPSOS) under the Deputy Commissioner of Operations and
the Office of Earnings, Enumeration and Administrative Systems under the Deputy
Commissioner of Systems. We conducted our follow-up audit in Baltimore, Maryland,
and the Office of Audit in Philadelphia, Pennsylvania, between August 2002 and
May 2003. We conducted our audit in accordance with generally accepted government
auditing standards.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)            2
                                                          Results of Review
Of the original 100 employers with wage reporting problems in TYs 1993 to 1996
(hereafter called the original period), 40 employers were still on the top 100 list for
TYs 1997 to 2000 (hereafter called the follow-up period). Of the remaining
60 employers, 14 improved their reporting accuracy, whereas the remaining 46 either
showed declining reporting accuracy or the accuracy could not be determined. SSA
has taken steps to implement two of the recommendations from our earlier audit report.
However, the Agency still needs to do more in establishing preventive controls to detect
wage reporting errors and irregularities. The Agency has established an Earnings Data
Warehouse that will eventually be able to track employer reporting errors. Furthermore,
SSA has not taken steps to implement address standardization software to identify
employers who report the same address for many employees.

STATUS OF 100 EMPLOYERS ON 1993 TO 1996 LIST

Our review of the ESF activity for the original 100 employers during TYs 1997 to 2000
showed that these employers submitted over 1.3 million items to the ESF, compared
with about 1.2 million items submitted by these same employers during TYs 1993 to
1996. This is an increase of about 12 percent (140,000 items) from the original period to
the follow-up period. Furthermore, our analysis showed that, of the original 100
employers in our prior review:

•   40 were still on the Top 100 employers list for the follow-up period; and
•   60 were no longer on the Top 100 employers list for the follow-up period.

Of the 60 employers that were no longer on the Top 100 employers list:

•   14 employers showed increased reporting accuracy1 from the original period to the
    follow-up period;
•   19 employers showed decreased reporting accuracy from the original period to the
    follow-up period; and
•   27 employers did not have sufficient wage items in TY 2000 to determine the
    reporting accuracy.

Figure 1 is a graphic representation of the status of the 100 employers, and
Appendix D provides more details on the status of the original 100 employers.




1
  We define reporting accuracy as the percent of reported wage items that fail to match the name and/or
SSN in SSA’s records and are posted to the ESF. Increased reporting accuracy means fewer of the
reported wage items go into the ESF over a period of time.



Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                          3
                 Figure 1: Status of the Original 100 Employers
                        During Tax Years (TY) 1997-2000

                                      27%

                                                                     40%




                                      19%

                                                          14%
                     Still on TY 1997-2000 Top 100 List
                     Not on the TY 1997-2000 Top 100 List - Increased Reporting Accuracy
                     Not on the TY 1997-2000 Top 100 List - Decreased Reporting Accuracy
                     Not on the TY 1997-2000 Top 100 List - Reporting Accuracy Not Determined




Employers are required to report their earnings under an Employer Identification
Number (EIN),2 and employers can report earnings using more than one EIN. We were
unable to identify all employers using multiple EINs during our follow-up period. Based
on our analysis of employers where we were able to link EINs, we believe more of the
original employers would have a significant number of ESF items, and the number of
original employers on the follow-up Top 100 list would have been larger, had these
employers reported their wages under the same EIN during the follow-up period.

We were able to learn more about the true reporting trends among the original Top
100 employers through (1) SSA’s earnings record system, which often cross references
different EINs used by the same employer, and (2) discussions with Employer Service
Liaison Officers (ESLO) who were aware of the different EINs being used by employers.

At least 12 of the 60 employers who were not on the follow-up Top 100 list reported
their wages under a different EIN(s) during TYs 1997 to 2000.3 For example, one
employer in the hotel industry (employer #11 in Appendix D) reported 19,641 wage
items during TYs 1993 to 1996 that went into the ESF. During TY 1996 alone, the
employer reported 278,819 W-2s, of which 9,421 went into suspense. During the
follow-up period, this same employer reported only 25 wage items that went into the
ESF in total. However, we learned that this employer reported the bulk of its W-2s
using two different EINs after TY 1996 and ceased using the EIN in our study by
TY 2000. This same employer reported 391,047 wage items to SSA in TY 2000 under

2
 The EIN is a nine-digit number assigned by the IRS to sole proprietors, corporations, partnerships,
estates, trusts, and other entities for tax filing and reporting purposes.
3
 We looked for anomalies, such as a new reporting EIN, when the number of wage items reported
annually during the TYs 1993 to 2000 period dropped significantly.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                       4
2 different EINs, of which 18,841 wage items went into the ESF. Had all of this
employer’s wages been reported under the original EIN, we believe this employer would
have been on the follow-up Top 100 employers list.

ORIGINAL EMPLOYERS STILL AMONG THE TOP 100 EMPLOYERS

Forty of the original 100 employers are also on the Top 100 list for the follow-up period.
These 40 employers reported over 1 million suspended wage items during the 4-year
follow-up period, or an average of 25,100 per employer. In the original 4-year period,
these 40 employers reported 649,000 suspended wage items, or an average of
16,200 per employer. Furthermore, these 40 employers represent 55 percent of all
suspended wage items on the original Top 100 list, and 76 percent of all suspended
wage items on the Top 100 list for the follow-up period.

All but 4 of these 40 employers showed decreased reporting accuracy during the follow-
up period. All four employers showing improved accuracy had been contacted by
SSA’s ESLOs during the follow-up period. We discuss ESLO activity later in this report.

ORIGINAL EMPLOYERS NO LONGER AMONG THE TOP 100 EMPLOYERS

While 60 percent of the original employers were no longer on the follow-up Top 100 list,
most fell off the list because of a change in how they reported wages to SSA rather than
improvements in their reporting. We found that 14 employers showed a clear
improvement in their reporting accuracy. As a result, they were no longer on the Top
100 employers list for the follow-up period. The percentage of wage items sent to the
ESF decreased during the 2 review periods for these 14 employers, which included
growers, restaurants, employment agencies, a retail store, and a local government.

For example, one restaurant employer (employer #44) significantly decreased both the
number and percentage of W-2 items going to the ESF from 1996 to 2000, even though
its payroll increased during the same period. In 1996, almost 37 percent of the
employer’s reported W-2s did not match SSA’s records and were sent to the ESF. The
percent of wages going into the ESF decreased to 2 percent in 2000.

We learned that SSA’s ESLOs contacted 11 of the 14 employers who improved their
reporting accuracy. In addition, one of these employers verified its employees’ names
and SSNs through SSA’s Employee Verification Service (EVS).4 It appears that SSA’s
services allowed these employers to improve their wage reporting during the follow-up
period.

The remaining 46 employers either (1) showed a decrease in their reporting accuracy or
(2) did not report wage items during the entire period, and we were unable to determine
their true reporting accuracy. Nineteen employers showed a decrease in their reporting
accuracy from TY 1996 to TY 2000. We were unable to determine the reporting
accuracy for another 27 employers, since 19 employers (70 percent) reported no wage
items in TY 2000, and another 8 employers (30 percent) reported 10 percent or less of
their TY 1996 wage items in TY 2000. As noted above, some of these employers may

4
    We discuss EVS later in this report.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)             5
be reporting their wages under a different EIN(s). In addition, it is possible that some of
these employers were no longer in business.

AGENCY PROGRESS ON EARLIER RECOMMENDATIONS
SSA has taken steps to address two of the recommendations through its efforts to
assist employers and hold them accountable for their wage reporting, including
(1) improving programs to assist employers with wage reporting problems, (2) focusing
resources on the largest contributors to the ESF, and (3) coordinating activities with the
IRS so employers who continually report significant name/SSN mismatches can be
penalized. However, SSA still needs to do more in establishing preventive controls to
detect wage reporting errors and irregularities. The Agency has established an
Earnings Data Warehouse that will eventually be able to track employer reporting
errors. Furthermore, the Agency has not identified employers that report the same
address for many employees.

IMPROVING PROGRAMS TO ASSIST EMPLOYERS

Since our 1999 audit, SSA has taken steps to assist the Top 100 employers, as well as
other employers, with their wage reporting. These new efforts include expanded
employer correspondence to notify employers of name/SSN mismatches in their wage
reports and developing an on-line employee verification program to assist employers
with name/SSN mismatches before the wage reports are submitted. SSA also assists
employers’ wage reporting through its ESLOs, though we did not find a high correlation
between the Top 100 employers and those contacted by the ESLOs. We also did not
find any corrective action plans specific to the 100 employers identified in our earlier
audit.

Employer Correspondence

In TY 2001, SSA improved its notification process for employers by increasing the
number of “no match” letters—or educational correspondence—it sends to employers
who submit W-2s containing name and/or SSN information that does not agree with
SSA’s records. Although SSA has been sending educational correspondence letters to
specific employers since 1994, in TY 2001, it began sending letters to all employers
where the name and/or SSN on just one W-2 did not agree with SSA’s records. SSA
sent employers approximately 950,000 letters in TY 2001, an almost 9-fold increase
from the previous year.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)             6
While we find this to be an encouraging step, SSA announced a new policy effective for
TY 2002 wage reporting. Employers will receive a letter if they
submit more than 10 W-2s that SSA could not process if those W-2s represent more
than one-half of 1 percent of the W-2s reported.5 As a result of this change, SSA
estimates it will send 129,000 letters to employers, or about 820,000 fewer letters than
in TY 2001. As with the earlier criteria, this change may overlook small employers or
employers who submitted only a few records that SSA could not process. SSA
attributed the change in policy to a business decision to balance improving the wage
reporting process with using Agency resources effectively.

Employee Verification Services

SSA is expanding its current EVS programs6 to include an on-line service called the
Social Security Number Verification Service (SSNVS). SSNVS is being piloted among a
few employers, but SSA hopes it will encourage more employers to use SSA's
name/SSN verification program for new employees. Our September 2002 report7 noted
that very few employers are using the current EVS system for registered users. This
program uses diskettes and magnetic media rather than on-line processes. In the
report, we stated that only 392 of approximately 6.5 million employers in the United
States were using SSA’s EVS during TYs 1999 to 2001. We also noted that SSA did
not disclose pertinent information that could have assisted users. Specifically, SSA did
not inform employers when a submitted SSN belonged to a deceased individual or
when the SSN was issued for non-work purposes. SSA has stated it intends to modify
both EVS and SSNVS to disclose the pertinent information to employers.

Our earlier report also determined that only 10 of the Top 100 employers with the
largest number of suspended items registered for and used SSA's EVS during TYs
1999 to 2001. A review of the EVS registration list showed that the 10 employers
signed up for the program in 1997 or later. The 10 employers represent just 3 percent
of the employers that used EVS during a recent 3-year period, 1999-2001; however,
they accounted for 25 percent or 13.5 million of the SSNs submitted to EVS. Three
employers alone submitted over 11.8 million SSNs.




5
 Before this, SSA only sent letters to employers who submitted more than 10 W-2s that SSA could not
process if those W-2s represented more than 10 percent of the W-2s reported.
6
  The purpose of the EVS program is to ensure employees’ names and SSNs are valid before the
employers' W-2s are submitted to SSA. The use of EVS is voluntary and can assist employers in
eliminating common SSN reporting errors. Depending on the number of SSNs they want to verify at one
time, employers can call an 800-number for 5 or fewer or submit a paper request of up to 50 names
directly to a SSA field office. Employers who wish to verify 51 or more SSNs at once are encouraged to
register for the EVS program.
7
 The Social Security Administration’s Employee Verification Service for Registered Employers
(A-03-02-22008), September 2002.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                         7
Of the 10 employers registered to use EVS, only 9 were using it during our follow-up
period. Of these 9 employers, our review determined that:

•     6 were still in the Top 100;
•     2 were no longer in the Top 100 but reported little or no earnings for at least 1 of the
      years in the follow-up period, so we could not determine their overall accuracy; and
•     1 was no longer in the Top 100 and had improved its wage reporting.

Employer Service Liasion Officers

Since 1996, SSA’s OPSOS has developed a national listing of employers who submit
100 or more suspended wage items. These lists are sent to regional ESLOs for follow-
up contacts with the employers.8 SSA does not direct the ESLOs to contact specific
employers or follow up with the ESLOs regarding what contacts were made and the
results of the contacts. For 2001, the number of employers on these lists ranged from
238 (Kansas City Region) to 3,826 (San Francisco Region)—see Table 1.

             Table 1: Employer Service Liaison Officer Contacts and Comments

                         Employers with    Employers on Top     Stated Mandatory      Stated IRS
                         More than 100     100 List Contacted    Use of EVS May      Penalties May
        Region          Items in ESF for       by ESLO          Improve Employer   Improve Employer
                            TY 2001                              Wage Reporting     Wage Reporting
    Atlanta                 1,909                  0                   --                 x
    Boston                   303                  1                    x                  x
    Chicago                  NP                    9                   x                  x
    Dallas (1)               NP                   11                   x                  x
    Denver (1)               NP                    2                   x                  x
    Kansas City              238                   0                   --                 --
    New York                 787                   7                   x                  x
    Philadelphia             478                   1                   --                 x
    San Francisco           3,826                 23                   --                 --
    Seattle                  761                  5                    x                  x
    Totals                  8,302                 59                   6                  8
NP = Not Provided by ESLO.
Note1: One response was provided covering both the Dallas and Denver Regions.

All nine regional ESLOs responded to our questionnaire regarding employer contacts in
their region.9 All the responding ESLOs received a list from OPSOS showing employers
in their region with 100 and more items in the ESF for TY 2001. Seven of the 9 ESLOs
reported they contacted at least some of the Top 100 employers from our prior audit.
These contacts were made by telephone, letter, and in person. In total, ESLOs

8
 SSA maintains ESLOs in each Region. The ESLOs' responsibilities include (1) answering employers’
questions on wage report submissions; (2) encouraging employers to use SSA’s various programs, such
as EVS; (3) conducting wage-reporting seminars, in partnership with the IRS, for employers, payroll
service providers, and payroll software companies; and (4) contacting employers with significant
suspended wage items in their regions.
9
    Although SSA has 10 regions, there are 9 ESLOs. The Dallas and Denver regions share an ESLO.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                      8
contacted 59 of the Top 100 employers, including 25 of the 40 employers that were still
in the Top 100 list as of TY 2000. One of the ESLOs who did not contact the Top 100
employers during this period stated he had contacted the employers in the past, but
other workloads had proved more productive.

Another ESLO noted that the list OPSOS provided did not highlight the Top 100
employers from our earlier audit. When we spoke to OPSOS staff, they pointed out that
ESLOs are not provided with information related to employer reporting trends, but rather
each ESLO has discretion as to which employers they contact.

When asked for comments regarding ways to improve employer reporting, ESLOs
commented that better coordination is needed between several Federal agencies,
including SSA, the IRS, and the Bureau of Citizenship and Immigration Services.
Furthermore, most of the ESLOs supported the mandatory use of EVS among
employers and IRS penalties for submitting incorrect wage reports. Other ESLO
comments included the following.

•     Until employers can verify the name and SSN before hiring an employee, wage
      items will continue to go into suspense since the individual is on the payroll before
      the problem is detected.

•     The problem often relates to the nature of the workforce, such as the widespread
      presence of illegal workers, which is not under SSA’s control.

•     Some employers may see the IRS penalty as a cost of doing business.

COORDINATION WITH THE INTERNAL REVENUE SERVICE

SSA and the IRS are coordinating their efforts to identify problem employers, which will
assist the IRS in assessing penalties against noncompliant employers. The Internal
Revenue Code allows the agency to penalize an employer if it fails to file a complete
and accurate wage reporting form.10 The penalty is $50 per incorrect form, with a
$250,000 yearly limit. For business with average receipts not more than $5 million, the
limit is $100,000 yearly. 11

In November 1998, SSA proposed that the IRS and SSA work together to develop
employer incentives that could encourage improved wage reporting. In August 2000,
SSA provided the IRS a list of the most egregious noncompliant employers for
TYs 1997 and 1998 so the Agency could determine whether penalties should be
assessed. The IRS did not assess penalties against the employers on the 1997 and
1998 lists since the statute of limitations expired before it could take action. The
Treasury Inspector General for Tax Administration estimated that the IRS, if it had acted

10
     26 U.S.C. § 6721 (2003).
11
  See id. The gross receipts test is met when, for any calendar year, the average annual gross receipts
for the most recent 3 taxable years do not exceed $5 million. In addition, any reference to an entity
includes a reference to any predecessor of that entity, and, the Internal Revenue Code allows for
exceptions if the errors are due to reasonable cause.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                          9
timely, could have assessed penalties between $26.0 and $29.7 million against
93 employers for TY 1997 and an additional 98 employers for TY 1998.12 Based on our
analysis, we believe the same conditions existed for TYs 1999 and 2000, and a like
amount of penalties could have been assessed for those years.

In February 2002, the IRS met again with SSA to develop a program for referring the
problem employers. Using employer reporting data from TYs 1997 through 2000, the
IRS stated it intended to do the following.

•     Analyze and develop a list of the most egregiously noncompliant employers for
      TYs 1997 through 2000. This was to be completed within 120 days from the receipt
      of the 1999 and 2000 data from SSA.

•     Develop a contact letter to notify the most egregiously noncompliant employers of
      their responsibility to file correct information returns. This letter was to be written
      within 60 days after receiving data from SSA.

•     Take corrective actions when the facts and circumstances show the employer
      knowingly or willfully failed to comply with the requirements of section 6721 of the
      Internal Revenue Code. Corrective actions may include another letter, a telephone
      call or visit by an IRS representative, a proposed penalty assessment, and/or an
      examination.13

The first proposed penalties are scheduled for June 2004 for W-2s filed for TY 2002.

PREVENTIVE CONTROLS AND ADDRESS STANDARIZATION SOFTWARE

SSA had not developed preventive controls to detect wage reporting problems and had
instead removed some of the controls already in place. Furthermore, SSA had not
taken steps to implement address standardization software to identify employers who
report the same address for many employees.

Preventive Controls

SSA had not established preventive controls to detect wage reporting errors and
irregularities. In response to this recommendation in our original report, SSA stated it
was exploring the feasibility of establishing an Earnings Suspense Management
Information Database, which would allow the Agency to better monitor wage reporting
errors and irregularities and more rapidly share information with the IRS. However, in
its most recent response to our recommendation, SSA noted it had explored and
implemented several innovations to improve the preventative controls established to
detect wage reporting errors and irregularities, including:


12
  The Internal Revenue Service Does Not Penalize Employers that File Wage and Tax Statements with
Inaccurate Social Security Numbers (Ref. Number 2002-30-156), Treasury Inspector General for Tax
Administration, September 2002.
13
     See id.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                10
•    Increasing the threshold at which reports would be returned to employers from
     10 percent of the wage report being correct to at least 50 percent of the wage report
     being correct – that is, containing correct name/SSN combinations. However, SSA
     noted this policy change had no payoff.
•    Identifying the largest contributors to the ESF and providing the employer
     information to regional offices for discretionary contact. SSA noted the contacts
     have educated employers on the importance of correct reporting but added the
     Agency has seen little payoff.

Based on these experiences, SSA believed the expected return on investment did not
justify the use of the software development resources that would be required for this
project.

We believe the innovations listed above did not have a chance to come to fruition. For
example, in our May 2001 Office of the Inspector General report,14 we commented on
the employer threshold and found that SSA’s policies and procedures did not improve
employer wage reporting as intended because they were not tracking key information.
Among other findings, the prior report found SSA (1) had no management information
system to identify chronic problem employers and (2) force processed15 wage reports
for the same employers for 2, and sometimes 3, consecutive years.

For TYs 1995 and earlier, SSA accepted magnetic media16 if as few as 10 percent of
the names and SSNs matched SSA’s records. SSA increased the acceptance
threshold to 30 percent for TY 1996 and to 50 percent for TY 1997 (with a maximum of
5,000 errors allowed). However, as a result of its determination that this threshold was
not having its intended effect, SSA increased the acceptance threshold to 95 percent
beginning in TY 2000, accepting wage reports with 95 percent of the name/SSN
combinations incorrect. Only 5 percent of the items on a wage report would be correctly
posted to an individual’s earnings record, and the remaining 95 percent would be sent
to the ESF.

In the May 2001 report, we disagreed with changing the threshold to 95 percent, stating
that, by raising the wage reporting acceptance threshold to 95 percent and continuing to
force process wage reports for the same employers, SSA had removed some
preventative controls that were in place. We encouraged SSA to reconsider eliminating
the 50-percent threshold until it had sufficient time to determine the impact this policy
change will have on the ESF. We still believe a 50-percent threshold would be a more
viable preventive control than a 95-percent threshold.


14
 Force Processing of Magnetic Media Wage Reports with Validation Problems (A-03-99-31001),
May 2001.
15
  See id. SSA uses a procedure known as force processing to process employer wage reports that do
not meet its acceptance standards. When force processing wage reports, SSA suspends a systems edit
and notifies the employer it will force process a wage report one time only. Force processing of wage
reports results in unmatched W-2s going directly to the ESF.
16
  Employers with 250 or more employees are required to use magnetic media (tape, diskette, or
cartridge) when reporting wage information to SSA.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                    11
We also believe improved management information related to employer reporting could
focus ESLO contacts in the region and make their efforts more productive. SSA is
establishing an Earnings Data Warehouse that can track employer-specific reporting
trends.17 This facility will be able to determine the percent of an employer’s payroll that
contains name and SSN mismatches. This information, combined with the ESLO
efforts, could allow for better targeting of problem employers.

Address Standardization Software

Our first report recommended that SSA run address standardization software as soon
as practical after employers submit wage reports to identify employers that report the
same address for many employees. SSA disagreed with this recommendation, stating it
would review the feasibility of this recommendation. SSA later stated it had decided not
to run address standardization software. SSA stated if the name/SSN on the wage
report matched SSA's records, the address is immaterial; and if the item does not match
SSA's records, the mismatch is the reporting problem. Furthermore, SSA noted that in
many cases, especially in the agricultural workforce, a number of people may live at the
same address. The Agency stated that this is often the case for a transient workforce
where specific apartments or homes are provided as a temporary residence. As a
result, SSA believes the potential return on investment does not appear to justify the
developmental costs that would be incurred to implement this recommendation.

While we understand the Agency’s position, we continue to believe duplicate mailing
addresses on W-2s may be an indicator of SSN fraud. Our original report found that 94
of the 100 employers reported duplicate mailing addresses for 3 or more employees,
involving almost 73,000 suspended W-2s and $194 million in suspended wages. In light
of increasing concerns about SSN misuse in the U.S. economy, maintaining
management information on address trends, or other similar trends, may assist SSA in
detecting such SSN misuse and allow the Office of the Inspector General to investigate
the more egregious situations.




17
  SSA Office of Systems staff said this facility should be able to track employer-specific trends by fall
2003.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                            12
                                            Conclusions and
                                         Recommendations
SSA has taken steps to implement two of the recommendations from our prior report.
However, while SSA’s actions have helped improve the wage reporting of some of the
100 employers, wage reporting problems still exist. In addition, we continue to believe
establishing preventive controls and implementing address standardization software, or
similar controls to detect potential SSN misuse, will help alleviate some of the wage
reporting problems and protect the integrity of the SSN.

To ensure SSA can identify employer reporting trends and focus its efforts on the
employers with the most significant problems, we continue to recommend that SSA
establish preventive controls to detect wage reporting errors and irregularities, including
a link between the new Earnings Data Warehouse and ESLO efforts.

AGENCY COMMENTS
SSA agreed with our recommendation, stating the Earnings Data Warehouse will
provide employer reporting trends in early 2004, and the ESLOs will have access to this
data.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)         13
                                     Appendices




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                                                                               Appendix A

Earlier Audit Findings Related to the Top 100
Employers
In our earlier audit,1 we noted that 84 of the 100 employers experienced increases in
suspended wage items over the 4-year period (1993 to 1996), including 27 employers
with increases of 100 percent or more.

Patterns of reporting errors and irregularities exhibited by the 100 employers included
the following.

    •   Ninety-six employers reported 109,360 unassigned Social Security numbers
        (SSN), numbers never issued by the Social Security Administration, representing
        about $298.5 million in suspended wages.

    •   Thirty-six employers reported 3,127 of the 109,360 unassigned SSNs as
        “000-00-0000.”

    •   Ninety-four employers reported duplicate mailing addresses for 3 or more
        employees, involving 72,770 suspended Wage and Tax Statements (Form W-2)
        or 21 percent of the 340,922 suspended wage items for these employers in 1996.
        Suspended wages involving duplicate addresses totaled about $193.7 million.

    •   Eighty-six employers reported 3 or more consecutively numbered SSNs involving
        4,910 W-2s and $14.4 million in suspended wages. We defined consecutive
        SSNs as those where the first six digits were identical.

    •   Sixty-nine employers reported 16,742 identical W-2s, representing $31.1 million
        in suspended wages, that were used 2 or more times by employees working for
        the same employer.




1
 Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended Wage Items
(A-03-98-31009), September 1999.


Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                                                                       Appendix B

Status of Office of the Inspector General
Recommendations Made in September 1999
Top 100 Report
Recommendation 1: Develop and implement a corrective action plan for the
100 employers and continue efforts to contact those employers responsible for large
numbers of suspended wage items.

Status: The Social Security Administration (SSA) agreed and implemented the
recommendation on October 2, 2001.

       SSA Response: SSA agreed that these employers should take corrective action.
       SSA is in its third year of contacting employers with 100 or more items in the
       suspense file. It plans to continue these efforts as a way of educating those
       employers on the importance of submitting accurate wage reports.

       SSA’s payoff from these efforts has been that it has learned a lot about those
       who cause the most items to be placed in the suspense file. The most egregious
       offenders are not improving their name/number accuracy and are not interested
       in learning how to do so, although SSA recognizes that some employers are
       interested and appreciate the educational contacts it makes. SSA believes
       improvement will only come through some stronger action.

       In addition, a change has already been made that will be included in notices sent
       in February 2000 for Tax Year 1999. SSA is inserting a section in the notice
       informing employers about their responsibilities and employee rights. This has
       become necessary because SSA does not want employers to abuse the
       information sent them by releasing employees without giving them the
       opportunity to correct their records or explain why information may be incorrect.

Recommendation 2: Establish preventive controls to detect wage reporting errors and
irregularities.

Status: SSA disagreed.

       SSA Response: SSA has explored and implemented several innovations to
       improve the preventative controls established to detect wage reporting errors and
       irregularities. The threshold at which reports would be returned was increased
       from 10 to 50 percent with no payoff to SSA. SSA has also identified the largest
       contributors to the suspense file and provided the employer information to its
       regional offices for discretionary contact. SSA’s contacts have educated
       employers on the importance of correct reporting, but it has seen little payoff.

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)      B-1
       Based on SSA’s experiences, it believes the expected return on investment does
       not justify the use of the software development resources that would be required
       for this project.

Recommendation 3: Identify those employers who continually submit annual wage
reports with large numbers and/or percentages of unassigned, identical, and/or
consecutively numbered Social Security numbers (SSN).

Status: SSA agreed and administratively closed out the recommendation on
September 5, 2000.

       SSA Response: Regional offices receive listings of those employers creating
       100 or more suspense items and make discretionary contact. SSA also provides
       employers with educational notices when the number of errors in a report
       submittal exceed 10 percent.

Recommendation 4: Run address standardization software as soon as practical after
employers submit their annual wage reports to identify employers who report the same
address for many employees.

Status: SSA disagreed and closed this recommendation on December 31, 2000.

       SSA Response: SSA explored the feasibility of implementing this
       recommendation. The Office of the Inspector General stated that identifying
       employers who report the same address for numerous employees could point to
       a reporting problem. Operations existing processes already identify name/SSN
       mismatches. If the wage items in question match SSA’s Numident and post to
       individual records on the Master Earnings File, the address reported by the
       employer is immaterial. Items that do not match the Numident and fall to
       suspense indicate a reporting problem. Through the processes already in place,
       SSA does send correspondence to the employers requesting that corrective
       action be taken.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)    B-2
                                                                        Appendix C

Scope and Methodology
To meet our objective, we:

•   Reviewed Social Security Administration (SSA) policies and procedures for
    maintaining individual earnings records.

•   Reviewed prior SSA Office of the Inspector General and Treasury Inspector General
    for Tax Administration reports related to the Earnings Suspense File (ESF) and
    inaccurate wage reporting.

•   Reviewed SSA’s most recent actions related to recommendations in our
    September 1999 report, Patterns of Reporting Errors and Irregularities by 100
    Employers with the Most Suspended Wage Items, and discussed SSA’s employer
    follow-up actions with staff in the Office of Public Services and Operations Support.

•   Contacted SSA’s regional Employer Service Liaison Officers for information
    regarding employer contact and suspended wage items.

•   Reviewed SSA’s actions targeting employers who submit large numbers of
    suspended wage items to the ESF.

•   Reviewed SSA’s ESF activity for 1997 to 2000 for the original 100 employers with
    the most suspended wage items in 1993 to 1996.

•   Created a new Top 100 employers list using the same criteria we used in the original
    Top 100 report. We identified all employers who contributed 200 or more wage
    items to the ESF in each of the 4 years in our follow-up period, 1997 to 2000. Using
    these data, we selected the 100 employers who had the most suspended wage
    items over the 4-year period. We then determined how many employers from the
    earlier audit were still on this new Top 100 listing and analyzed the reporting activity
    related to each of these 100 employers.

    The following are some important factors regarding the methodology used in our
    follow-up review that need to be considered.

           ¾ These employers were identified using a specific methodology. This is not
             the only methodology one could use, but using auditor’s judgment, we
             determined it was a useful way of identifying reporting trends.

           ¾ The list is based on wage items reported under an Employer Identification
             Number (EIN), and some employers report under multiple EINs. Hence,
             while the trends noted in the audit relate to the EIN, they do not

Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)         C-1
              necessarily give a complete picture of the employer. Furthermore, not all
              employers report their wages in the same way, so one company may
              report all of its operations under a single EIN and another may use
              multiple EINs. However, SSA’s systems house the wage data under EINs
              and do not allow us to focus on individual employers. As a result, the
              audit is identifying the 100 EINs with the most suspended wage items and
              not necessarily the 100 employers with the most suspended wage items.

          ¾ Employers are allowed to switch their EINs for reporting. As a result, we
            found instances where wages were reported under different EINs over the
            4-year period. Under our methodology, if a company switched EINs
            between 1993 and 1996, it may have failed to report over 200 items in a
            particular year under a particular EIN and therefore never have made the
            top 100 listing. However, if one were to look at the employer over the
            4-year period rather than the EIN they might have been among the top
            100 employers. The same reasoning holds true for our follow-up period,
            1997 to 2000, when reviewing the reporting activity of the original top
            100 employers.

          ¾ Some employers are on the list because of their employment volume
            rather than significant problems with their reporting accuracy. For
            example, some employers are reporting only 1 percent of their employees
            with name/Social Security number mismatches, but they are on the list
            because 1 percent of their total payroll is a large number. These
            employers may not have the same underlying problems as the smaller
            employer reporting as much as 85 percent of its payroll in error.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)    C-2
                                                                                                           Appendix D

Initial Top 100 Listing Highlighting Status in Follow-Up Period
                                                                                                     Reporting Accuracy
1993-96             Tax Year (TY)    TY 1996      TY 2000        TY 2000      Present in    TY 1996      TY 2000        Has the
Ranking     State       1996         W-2s in       W-2s          W-2s in     1997-2000     Percent of   Percent of     Reporting
                        W-2s          ESF         Reported        ESF          Top 100     Reported      Reported      Accuracy
                      Reported                                               Employers?    W-2s in the    W-2s in     Improved?
                                                                                            Earnings        ESF
                                                                                           Suspense
                                                                                           File (ESF)
    1       CA           331,348        7,621        358,238         3,938         Yes         2.30%        1.10%          Yes
    2       IL           237,656       17,019        229,361        33,829         Yes         7.16%       14.75%           No
    3       FL           236,139       13,577        209,921        20,367         Yes         5.75%        9.70%           No
    4       MI           559,694       11,237        533,439        15,037         Yes         2.01%        2.82%           No
    5       SC            98,020        9,594        103,641        11,006         Yes         9.79%       10.62%           No
    6       IL            10,053        4,790          5,571         3,896         Yes        47.65%       69.93%           No
    7       GA            51,465        6,536         46,416        11,472         Yes        12.70%       24.72%           No
    8       CA            57,639        9,107         95,250        20,182         Yes        15.80%       21.19%           No
    9       CA            20,356        6,290              0             0         No         30.90%           NA      Unknown
   10       CA             9,629        6,336          8,616         5,171         Yes        65.80%       60.02%          Yes
   11       DC           278,819        9,421              0             0         No          3.38%           NA      Unknown
   12       TX            29,953        5,576              0             0         No         18.62%           NA      Unknown
   13       OK           215,189        6,456        254,990        11,527         Yes         3.00%        4.52%           No
   14       CA            24,920        5,245         32,617         9,475         Yes        21.05%       29.05%           No
   15       GA            26,982        4,559         11,012         5,183         Yes        16.90%       47.07%           No
   16       MI           593,667        5,343        599,972         7,209         Yes         0.90%         1.2%           No
   17       IL             9,027          659         10,494         7,500         Yes         7.30%       71.47%           No
   18       FL           225,759        4,809            134             0         No          2.13%        0.00%      Unknown
   19       CA           188,000          564              0             0         No          0.30%           NA      Unknown
   20       CA           224,099        4,814          4,712            15         No          2.15%        0.32%      Unknown




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                                             D-1
                                                                                                    Reporting Accuracy
1993-96                TY 1996       TY 1996      TY 2000        TY 2000      Present in    TY 1996     TY 2000        Has the
Ranking     State       W-2s         W-2s in       W-2s          W-2s in     1997-2000     Percent of  Percent of     Reporting
                       Reported       ESF         Reported        ESF          Top 100     Reported     Reported      Accuracy
                                                                             Employers?     W-2s in      W-2s in     Improved?
                                                                                             ESF           ESF
   21       CA            80,038        4,242             0              0         No         5.30%           NA      Unknown
   22       TX            45,371        4,401        40,729          5,655         Yes        9.70%       13.88%           No
   23       CA            94,608        5,551       146,911         12,919         Yes        5.87%        8.79%           No
   24       MA            35,131        3,100             0              0         No         8.82%           NA      Unknown
   25       CA             5,971        4,039         8,297          6,495         Yes       67.64%       78.28%           No
   26       CA            11,464        3,474        15,500          4,870         Yes       30.30%       31.42%           No
   27       IL             6,807        3,604             0              0         No        52.95%           NA      Unknown
   28       OR            44,277        4,655        49,988          3,580         Yes       10.51%        7.16%          Yes
   29       CA             4,216        2,783         2,052          1,350         No        66.01%       65.79%          Yes
   30       KY            93,733        4,218        81,819          9,485         Yes        4.50%       11.59%           No
   31       KS            29,804        3,143            99             26         No        10.55%       26.26%      Unknown
   32       NY            11,030        2,386         9,726          2,514         No        21.63%       25.85%           No
   33       IL             6,249        3.384         1,014            763         Yes       54.15%       75.25%           No
   34       AR           578,903        3,216             0              0         No         0.56%           NA      Unknown
   35       NC           107,036        2,701        99,668          2,391         No         2.52%        2.40%          Yes
   36       TX            39,144        3,569        24,546          1,276         Yes        9.12%        5.20%          Yes
   37       NY            26,459        1,449        14,912             55         No         5.48%        0.37%          Yes
   38       TX             8,256        2,633         6,076          2,402         No        31.89%       39.53%           No
   39       CA             4,317        3,084             0              0         No        71.44%           NA      Unknown
   40       KS           155,893        2,879       136,577          8,555         Yes        1.85%        6.26%           No
   41       CA             3,401        2,648             0              0         No        77.86%           NA      Unknown
   42       CA             4,748        2,713            57              0         No        57.14%        0.00%      Unknown
   43       AZ             7,543        2,481         9,511          3,357         Yes       32.89%       35.30%           No
   44       IL             7,386        2,721         8,148            162         No        36.84%        1.99%          Yes
   45       IL             5,407        2,682        10,399          6,727         Yes       49.60%       64.69%           No
   46       CA            64,356        2,439             0              0         No         3.79%           NA      Unknown
   47       SC             4,641        1,935         7,076          3,310         No        41.69%       46.78%           No
   48       CA             3,658        2,798         2,864              4         No        76.49%        0.14%          Yes



Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                                            D-2
                                                                                                     Reporting Accuracy
1993-96                TY 1996       TY 1996       TY 2000       TY 2000       Present in    TY 1996     TY 2000        Has the
Ranking     State       W-2s         W-2s in         W-2s        W-2s in      1997-2000     Percent of  Percent of     Reporting
                       Reported       ESF          Reported       ESF           Top 100     Reported     Reported      Accuracy
                                                                              Employers?     W-2s in      W-2s in     Improved?
                                                                                              ESF           ESF
   49       WA             3,841         2,027         3,527          2,128        No         52.77%       60.33%           No
   50       NY            26,091         3,511             0              0        No         13.46%           NA      Unknown
   51       OH            66,903         3,244        47,769          7,976        Yes         4.85%       16.70%           No
   52       TN            93,011         1,973        51,458          1,403        No          2.12%        2.73%           No
   53       CA             9,351         2,191             0              0        No         23.43%           NA      Unknown
   54       IL             2,554         1,866         2,329          1,806        No         73.06%       77.54%           No
   55       FL             5,085         2,603             0              0        No         51.19%           NA      Unknown
   56       FL             1,977           952             0              0        No         48.15%           NA      Unknown
   57       CA            11,019         2,485        14,921          4,790        Yes        22.55%       32.10%           No
   58       CA             6,345         1,715         6,344          2,396        No         27.03%       37.77%           No
   59       CA             6,639         2,722             0              0        No         41.00%           NA      Unknown
   60       OH            37,573         2,928        35,772          7,061        Yes         7.79%       19.74%           No
   61       WA             3,394         2,348         3,880          2,622        No         69.18%       67.58%          Yes
   62       FL             3,824         1,028             0              0        No         26.88%           NA      Unknown
   63       IA             5,132         2,330         6,473          4,126        Yes        45.40%       63.74%           No
   64       CA             7,086         2,551        10,354          4,794        Yes        36.00%       46.30%           No
   65       CA            17,730         3,617        15,661          5,089        Yes        20.40%       32.49%           No
   66       NY           443,776         2,214       442,395            943        No          0.50%        0.21%          Yes
   67       TX             2,958         1,692             0              0        No         57.20%           NA      Unknown
   68       CA             2,990         1,944         3,252          2,234        No         65.02%       68.70%           No
   69       WA             2,955         1,868         4,194          2,785        Yes        63.21%       66.40%           No
   70       TX            14,767         1,611        12,359          1,554        No         10.91%       12.57%           No
   71       WA             3,712         2,261         5,221          3,574        Yes        60.91%       68.45%           No
   72       CA             7,159         2,125           685            133        No         29.68%       19.42%      Unknown
   73       NC            32,368         2,576        27,271          3,375        Yes         7.96%       12.38%           No
   74       NJ             9,614         1,692         9,583          1,776        No         17.60%       18.53%           No
   75       CA             2,486         1,771         3,651          2,755        No         71.24%       75.46%           No
   76       MN           280,056         2,261       407,714          7,458        Yes         0.81%        1.83%           No




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                                             D-3
                                                                                                                Reporting Accuracy
1993-96                   TY 1996         TY 1996        TY 2000          TY 2000        Present in     TY 1996     TY 2000        Has the
Ranking       State        W-2s           W-2s in          W-2s           W-2s in       1997-2000      Percent of  Percent of     Reporting
                          Reported         ESF           Reported          ESF            Top 100      Reported     Reported      Accuracy
                                                                                        Employers?      W-2s in      W-2s in     Improved?
                                                                                                         ESF           ESF
    77       UT               57,373          3,245          91,086            5,222        Yes            5.66%         5.73%            No
    78       IL                3,645          2,501           4,647            3,565        Yes           68.61%        76.72%            No
    79       CA                3,084          2,098           3,810            2,919        No            68.03%        76.61%            No
    80       AL               58,598          2,464          64,325            4,031        Yes            4.20%         6.27%            No
    81       CA                2,749          2,326               3                0        No            84.60%         0.00%       Unknown
    82       CA                2,746          1,870               0                0        No            68.10%            NA       Unknown
    83       TX               20,661          4,191          32,282            8,931        Yes           20.28%        27.67%            No
    84       CA                2,167          1,610           2,224            1,651        No            74.30%        74.24%           Yes
    85       CA                6,735          1,842           5,603            1,818        No            27.35%        32.45%            No
    86       CA                1,930          1,396           1,268              909        No            72.33%        71.69%           Yes
    87       TX              377,808          1,660         343,106            1,480        No             0.44%         0.43%           Yes
    88       TX               18,474          2,637          20,937            2,283        No            14.27%        10.90%           Yes
    89       FL                4,589          2,249           3,424            2,237        Yes           49.01%        65.33%            No
    90       NC                3,244          2,725             277              176        No            84.00%        63.54%       Unknown
    91       CA                5,519            320           8,121            2.620        No             5.80%        32.26%            No
    92       NJ                4,126          2,779           3,111                0        No            67.35%         0.00%           Yes
    93       FL               16,033          1,378          41,772            2,286        No             8.59%         5.47%           Yes
    94       CA                8,578          1,587           9,645            2,435        No            18.50%        25.25%            No
    95       NJ                4,974          2,514               7                0        No            50.54%         0.00%       Unknown
    96       CA               35,006          1,478          33,405            2,093        No             4.22%         6.27%            No
    97       CA                1,699          1,347           2,555            2,177        No            79.30%        85.21%            No
    98       TX               15,115          1,766          13,941            3,320        No            11.68%        23.81%            No
    99       IL               50,135          2,509          54,303              689        No             5.00%         1.27%           Yes
   100       KS               52,516          1,843          50,317            1,830        No             3.51%         3.64%            No
  Totals                    6,738,264        340,922       5,085,385         365,153

Note: Some of the TY 1996 accuracy rates have been adjusted from the earlier audit to (1) show a more precise rate and (2) account for the most
recent employer wage reporting information available in the Agency’s systems.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                                                           D-4
                                                                        Appendix E
Agency Comments




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                                SOCIAL SECURITY

MEMORANDUM                                                           32226-24-950


Date:      October 17, 2003                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up Review of
           Employers with the Most Suspended Wage Items” (A-03-03-13026)--
           INFORMATION


           We appreciate OIG's efforts in conducting this follow-up review. Our comments
           on the recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be
           referred to Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




  Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP REVIEW OF EMPLOYERS WITH THE MOST SUSPENDED
WAGE ITEMS” A-03-03-13026

We appreciate the opportunity to comment on the draft report. As stated in this report, the
Agency has, and continues to pursue activities that would remove items from the Earnings
Suspense File (ESF) and promote prevention efforts. We have worked with the Internal Revenue
Service (IRS) to encourage them to consider penalizing employers who continually have larger
amounts or percentages of wage items placed in the ESF during wage and tax statement
processing. To assist IRS in the analysis of this proposal, we provided IRS with a list of the Top
100 employers of wage items placed in the ESF based on both volume and percentage for tax
years 1999 and 2000. In addition, we have worked with the Treasury Inspector General (IG) to
further support this activity. Based on a Treasury IG report, the IRS is studying the effect of
imposing penalties on the most egregious employers who place items in the ESF.

Below are our specific comments to the recommendation.

Recommendation 1

Establish preventive controls to detect wage reporting errors and irregularities, including a link
between the new Earnings Data Warehouse and Employer Service Liaison Officer (ESLO)
efforts.

Comment

We agree. Phase II of the Earnings Data Warehouse (EDW), scheduled for implementation in
March 2004, will incorporate employer records (W-3’s) with much of the associated detail.
Phase II will have historical data from receipt year 1999 (tax year 1998) through the present
receipt year data and will also have the data to identify employers who have, or had, incorrect
name/SSN combinations.

Additionally, our ESLOs go through extensive efforts to assist employers in their wage reporting
issues. ESLOs will have access to EDW through the Brio tool, an on-line analytical processing
tool used to analyze data, and are able to perform ad-hoc queries on a larger number of data
sources.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)                 E-2
                                                                         Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, (215) 597-4080

Staff Acknowledgments
In addition to those named above:

   Michael Thomson, Senior Auditor

   Richard Devers, Senior Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-03-13026.




Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
